Highlights
Table of Contents




                    National
                    Change of
                    Address
                    Program
Findings
Recommendations




                    Audit Report
                    Report Number
                    IT-AR-14-010

                    September 24, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                           Background                                                        of Address Linkage (NCOALink) to licensees who facilitate
                                                                                                                           relationships with business mailers. NCOALink is an application
                                                         More than 40 million Americans change their addresses
                                                                                                                           containing about 160 million COA records. The Postal Service
                                                         annually and submit change of address (COA) orders to the
                                                                                                                           requires licensees and their customers to complete a
                                                         U.S. Postal Service. Customers can submit orders electronically
                                                                                                                           Processing Acknowledgment Form (acknowledgement form)
                                                         through the Internet or submit hard copy orders through the
                                                                                                                           to comply with the Privacy Act of 1974 and document the
Findings




                                                         mail or at a Post Office retail counter. The Postal Service
                                                                                                                           companies’ intended use of the data.
                      Security controls over change      provides COA information for a fee through National Change

                          of address and NCOALink                                                                          Our objectives were to determine whether security controls
                                                                                                                           over the COA manual process and NCOALink data adequately
                                data do not protect                                                                        protect the confidentiality and integrity of customer data and
                                                                                                                           identify potential solutions for improving the Postal Service’s
                             customer information.                                                                         acknowledgement form process.
Recommendations




                                                                                  More than 40                             What The OIG Found
                                                                                  Million Americans
                                                                                  Submit Change of                         Security controls over the COA manual processes and
                                                                                   Address orders.                         NCOALink data are not sufficient to protect the confidentiality
                                                                                                                           and integrity of customer information. We visited one of the
                                                                                                                           22 Computerized Forwarding System sites and found personnel
                                                                                                                           did not adhere to controls related to processing and retaining
                                                                                                                           hard copy COA orders.

                                                                                                                           We also determined the Postal Service is using outdated
Appendices




                                                                                                                           software to      data. In addition, NCOALink license
                                                                                                                           agreements did not always have sufficient contract provisions to
                                                                                                                           protect customer data, and management did not always monitor
                                                                        Either electronically or hard copy                 these agreements for licensee compliance.

                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                  Print                                      1
Highlights
Table of Contents




                                                         As a result, there is a risk that unauthorized users could access   System, and store hard copy COA orders in accordance with
                                                         COA data and NCOALink data could be breached, which could           policy. We also recommended management
                                                         lead to fines and a negative impact on the Postal Service brand.    re-initiate the National Change of Address certification and
                                                         We estimated 13,554,542 NCOALink customer records with a            accreditation process, upgrade outdated security software,
                                                         potential value of $228 million are at risk.                        identify all cooperative database mailers and their activities,
                                                                                                                             and implement a process to ensure current Postal Service
Findings




                                                         In addition, management does not have an enterprise solution        requirements are in all license agreements to protect
                                                         in place or plan to automate the acknowledgement
                                                                                                                             customer information.
                                                         form process.
                                                                                                                             Finally, we recommended management implement a plan of
                                                         What The OIG Recommended                                            action for conducting random site security reviews of licensees
                                                         We recommended management centralize user account                   and evaluate potential solutions and benefits of automating the
                                                         management in eAccess for the COA Forms Processing
Recommendations




                                                                                                                             acknowledgement form process.
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                     Print                                     2
Highlights
                    Transmittal Letter


                                                         September 24, 2014
Table of Contents




                                                         MEMORANDUM FOR:	      ROBERT CINTRON
                                                                               VICE PRESIDENT, PRODUCT INFORMATION

                                                                               JOHN T. EDGAR
                                                                               VICE PRESIDENT, INFORMATION TECHNOLOGY

                                                                               EDWARD F. PHELAN, JR.
                                                                               VICE PRESIDENT, DELIVERY AND POST OFFICE
                                                                               OPERATIONS

                                                                               MICHAEL J. AMATO
                                                                               VICE PRESIDENT, ENGINEERING SYSTEMS
Findings




                                                                               MICHAEL J. ELSTON
                                                                               ASSOCIATE GENERAL COUNSEL AND CHIEF ETHICS/
                                                                               COMPLIANCE OFFICER, CHIEF ETHICS/COMPLIANCE
                                                                               OFFICE

                                                                               CHARLES L. MCGANN, JR.
                                                                               MANAGER, CORPORATE INFORMATION SECURITY
                                                                               OFFICE
Recommendations




                                                             DAVID G. BOWERS
                                                             POSTAL INSPECTOR IN CHARGE, SECURITY AND CRIME
                                                             PREVENTION
                                                         				
                                                                                   E-Signed by Kimberly Benoit
                                                                              VERIFY authenticity with eSign Desktop




                                                         FROM: 			             Kimberly F. Benoit
                                                                               Deputy Assistant Inspector General
                                                                                for Information Technology and Data Analysis
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                       Print   3
Highlights




                                                         SUBJECT: 			              Audit Report – National Change of Address Program
                                                                                   (Report Number IT-AR-14-010)

                                                         This report presents the results of our audit of the National Change of Address Program
Table of Contents




                                                         (Project Number 14BG006IT000).

                                                         We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                         questions or need additional information, please contact Aron Alexander, director,
                                                         Information Technology, or me at 703-248-2100.

                                                         Attachment

                                                         cc:	 Corporate Audit and Response Management
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                              Print                4
Highlights
                    Table of Contents                    Cover
                                                         Highlights.......................................................................................................1
                                                          Background.................................................................................................1
                                                          What The OIG Recommended...................................................................2
                                                         Transmittal Letter...........................................................................................3
                                                         Findings.........................................................................................................6
                                                          Introduction.................................................................................................6
Table of Contents




                                                          Conclusion..................................................................................................8
                                                          Access Controls at the Computer Forwarding Site.....................................8
                                                          Controls Over National Change of Address Linkage Customer Data.........9
                                                            National Change of Address Linkage Data Protection ............................9
                                                            National Change of Address Linkage License Provisions........................9
                                                            National Chage of Address Linkage License Monitoring........................10
                                                         Recommendations......................................................................................12
                                                          Management’s Comments........................................................................13
                                                          Evaluation of Management’s Comments..................................................14
Findings




                                                         Appendices..................................................................................................15
                                                          Appendix A: Additional Information...........................................................16
                                                            Background ...........................................................................................16
                                                            Objectives, Scope, and Methodology.....................................................16
                                                            Prior Audit Coverage..............................................................................17
                                                          Appendix B: Management’s Comments....................................................18
Recommendations




                                                         Contact Information.....................................................................................30
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                   Print                      5
Highlights
                    Findings                             Introduction
                                                         This report presents the results of our self-initiated audit of the National Change of Address (NCOA) Program (Project Number
                                                         14BG006IT000). Our objectives were to determine whether security controls over the change of address (COA) manual process
                                                         and National Change of Address Linkage (NCOALink) data adequately protect the confidentiality and integrity of customer data
                                                         and identify potential solutions for improving the U.S. Postal Service’s Processing Acknowledgement Form (acknowledgement
                                                         form) 1 process. See Appendix A for additional information about this audit.

                                                         When mail is misaddressed,2 the Postal Service and business mailers incur added costs for sorting, transporting, delivering, and
Table of Contents




                                                         disposing of it. As a result, the Postal Service implemented address correction services in 1924 and the NCOA Program in 1986.
                                                         The NCOA Program includes COA services that provide customers the option of forwarding mail to their new address by
                                                         submitting COA orders electronically through the Postal Service’s website or submitting hard copy orders3 through the mail or at a
                                                         Postal Service retail counter.
Findings




                                                                    The Postal Service scans                                and 22 Computerized                                              across the country
                                                                    hard copy COA orders at                                Forwarding System sites
Recommendations




                                                                     64 Postal Automated
                                                                    Redirection System sites
Appendices




                                                         1	   A written request to use COA information for mailing purposes in accordance with the license agreement and the Privacy Act of 1974 (Section 552a).
                                                         2	   Undeliverable as Addressed (UAA) mail the Postal Service cannot deliver as addressed and must forward to a different address for the addressee, return to the sender,
                                                              or, in some cases, destroy.
                                                         3	   Hard copy COA orders consist of the official Change of Address Order (Form 3575) obtained at a retail office and U. S. Postal Service Change of Address Order
                                                              (Form 3575-WWW) from the official USPS® COA website.
                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                                                Print                                                 6
Highlights                                               The Postal Service scans hard copy COA orders at 64 Postal Automated Redirection Systems (PARS)4 and 22 Computerized
                                                         Forwarding System (CFS)5 sites across the country. Additional processing of scanned COA images may occur at the Remote
                                                         Encoding Center (REC)6 in Salt Lake City, UT. Hard copy COA orders totaled 25 million (or 65 percent) of the 39 million COA
                                                         orders processed in fiscal year 2013. To confirm the validity of COA orders, the Postal Service sends confirmation and validation
                                                         letters to the customer’s old and new address and places a 5-day hold on mail interception to allow for delivery of the
                                                         confirmation letter.
Table of Contents




                                                                                                                                                  25 million, or
                                                                                                                                                  65 percent, of
                                                                                                                                                  the 39 million
                                                                                                                                 35%              change of address
                                                                                                                                 14 million       orders processed
                                                                                                                                                  from FY 2013 were
                                                                                                                                                 hard copy.



                                                                                                                                                     65%
Findings




                                                         The Address Management group in Memphis, TN, stores COA data in the NCOA database.7 Address Management provides
                                                         COA data to licensees through the NCOALink application8 to minimize misaddressed mail and related costs incurred by the
                                                         Postal Service and business mailers. Licensees acquire a license to obtain COA data from the Postal Service.9 The licensees
Recommendations




                                                         then provide NCOALink data to their customers, which include business mailers and other entities.10 Prior to obtaining NCOALink
                                                         data and services, the licensees and their customers must complete an acknowledgement form to comply with Privacy Act
                                                         requirements. Licensees are also required to collect annual updates of acknowledgement forms from their customers and provide
                                                         the Postal Service with monthly performance reports.



                                                         4	  An automated system that identifies and redirects UAA mail in a live mail processing environment at 258 select processing and distribution centers, 64 of which process
                                                             COA Forms 3575.
                                                         5	 The 22 CFS sites are responsible for entering the customer’s “old” and “new” address information into the CFS database to facilitate address correction notifications and
                                                             further handling of mailpieces.
                                                         6	 A postal facility that processes COA unreadable image data to correct delivery address information.
                                                         7	 The NCOA application is a database of COA records that stores COA information for postal patrons and consists of 20 modules, including NCOALink.
Appendices




                                                         8	 NCOALink is a premailing, address correction method consisting of a secure dataset of permanent COA records of about 160 million residential and business customers
                                                             who have filed COA requests.
                                                         9	 During our audit, the Postal Service had 515 NCOALink license agreements and 16 additional NCOALink licenses were pending.
                                                         10	 These entities include broker-agents, who act as middle men between the business mailer and licensee; list administrators, who house, update, and manage the mailing
                                                             list for the business mailer; list custodians, who are responsible for the address mailing list for a particular company; list brokers, who are third-party companies that
                                                             compile and sell customer names and addresses; and cooperative database participants that consist of many companies that contribute information to a database in
                                                             return for aggregate information on customers of other participants.
                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                                                  Print                                                   7
Highlights                                               Conclusion
                                                         Security controls related to the COA manual submission11 process and NCOALink data transmissions and license agreements
                                                         need to improve. Of the 22 CFS sites, we visited one and found personnel did not adhere to controls related to processing
                                                         and retaining hard copy COA orders. We also determined the Postal Service is using an outdated                   within the
                                                         application. Further, NCOALink license agreements did not always have sufficient contract provisions to protect customer data
                                                                     12


                                                         and management did not always monitor existing agreements for licensee compliance.
                    Controls over change of address
                                                         There is a risk that COA data could be accessed by unauthorized users, which could lead to fines and a negative impact on the
Table of Contents




                       orders were not implemented.      Postal Service brand. We estimated that 13,554,542 NCOALink customer records with a potential value of $228 million are at risk.

                                                         Access Controls at the Computer Forwarding Site
                                                         Management did not implement existing controls over COA orders at the Jackson, TN, CFS site. Specifically, COA orders were not
                                                         stored in a secured area, as required by policy.13 During our visit to the facility, we found numerous hard copy COA orders, some
                                                         dating back to July 2013, stored in an unsecured open area accessible to all Jackson CFS site employees. See Figure 1 for a
                                                         photograph of the area where employees stored the orders.

                                                         Figure 1. Storage of COA Orders
Findings
Recommendations




                                                         Source: U.S. Postal Service Office of Inspector General (OIG) photograph taken April 10, 2014.



                                                         This site opened in June 2013 and the new supervisor was not aware of the CFS storage process. Improper storage of sensitive
                                                         COA orders increases the risk an unauthorized individual will access a customer’s COA information.
Appendices




                                                         11	 Hard copy COA submissions consist of Form 3575 obtained at a retail office and Form 3575-WWW printed from the Internet COA website.
                                                         12	
                                                                                             Per the National Institutes of Standards and Technology, the outdated
                                                         13	 Handbook AS-805, Information Security, Section 3-5.3, Retention and Storage of Information; and Section 7-3.4 Sensitive-Enhanced, Sensitive, and Critical Media,
                                                             May 2014.
                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                                              Print                                             8
Highlights                                               In addition, all four CFS operators at the Jackson CFS site were using the same user account and password to log into the COA
                                                         Forms Processing System (CFPS).14 This occurred because the CFS operator responsible for providing user access was not
                                                         aware of password policies.15 In addition, the CFPS system is not a part of the eAccess system16 and, as a result, management
                                                         cannot establish accountability for individuals responsible for errors in data entry or misuse of the system.

                                                         Controls Over National Change of Address Linkage Customer Data
                     The Postal Service can enhance      The Postal Service could enhance controls over NCOALink data related to data transmission, license provisions, and license
                                                         monitoring to secure COA information. We estimated 13,554,542 NCOALink customer records with a potential value of
Table of Contents




                       controls over NCOALink data       $228 million are at risk of unauthorized access.
                      and licenses. We estimate 13.5
                                                         National Change of Address Linkage Data Protection
                    million customer records valued      The NCOA Program office uses an outdated                       coupled with an in-house, patented          18
                                                                                                                                                                       to     9
                                                                                                                                                                                NCOALink
                                                         data provided to its licensees. The outdated                 does not comply with security policy because management was
                                                                                                                                                           20
                          at $228 million are at risk.
                                                         unaware of the policy. In addition, the outdated                was not reviewed in the latest risk assessment process21 to
                                                         determine vulnerabilities associated with the NCOA application. Management stated that changing the current                 to
                                                         conform to the policy would require a major upgrade to Postal Service systems and those of its licensees. Because the
                                                         Postal Service uses this outdated         a person could crack the          to access or change sensitive NCOALink
                                                         customer data.

                                                                 the National Institute of Standards and Technology required applications in federal agencies to move to an updated
Findings




                                                                                   . In addition, Microsoft announced that Windows will stop supporting the current             by
                                                                       ; therefore, if the Postal Service does not begin to convert the NCOALink application to a more secure
                                                         standard, it might not be able to transmit data to its licensees as their systems are upgraded.

                                                         National Change of Address Linkage License Provisions
                                                         NCOALink license agreements did not always contain sufficient contract provisions that require licensees and business mailers to
                                                         secure customer data. We sampled 36 of 515 NCOALink license agreements and determined they all contained at least one of the
Recommendations




                                                         following issues:




                                                         14	 The CFPS automates the COA form process by scanning the cards and transmitting the information to the NCOA database.
                                                         15	 Handbook AS-805, Section 9-4, Accountability, March 2014.
                                                         16	 eAccess is an enterprise application used to manage authorization of access to information resources by centralizing the management of personnel identities and access
                                                             rights over the entire lifecycle, from user account creation and registration to termination.
                                                         17	
                                                         18	 James D. Wilson, et al., Method and System for Efficiently Retrieving Secured Data by Securely Pre-processing Provided Access Information; U.S. Patent No. 7,549,053,
                                                             June 16, 2009.
Appendices




                                                         19	 The process of hiding original data with random characters. The main reason for applying              to data is to protect personal identifiable or sensitive data.
                                                                         are not encryption methods, but offer addtional system security using a                                              .
                                                         20	 According to Handbook AS-805, Section 9-7.4, the Postal Service’s                                                            In addition, Handbook AS-805-A, Information
                                                             Resource Certification and Accreditation Process, Section 4-3.4.6, Assess Risk; and Section 4-3.4.7, Conduct Risk Assessment, October 2009, require an ongoing risk
                                                             assessment for all information resources to identify security concerns such as threats, vulnerabilities, and control weaknesses.
                                                         21	 The risk assessment is part of the certification and accreditation process.
                                                         22	
                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                                               Print                                               9
Highlights                                               ■■ Thirty-four license agreements did not have adequate “Security Documentation”23 to assure third-party adherence to privacy
                                                            and security requirements.

                                                         ■■ Three of the licensees in our sample are commingling Postal Service NCOALink data servers in third-party data centers shared
                                                            with other companies, which violates policy.24

                                                         ■■ Licensees are not identifying all cooperative database business mailers25 who receive NCOALink data as stipulated in their
                                                            monthly performance report requirements.
Table of Contents




                                                         These security issues occurred because there is no assigned contracting authority or process to ensure management incorporates
                                                         the appropriate security, privacy, and acknowledgement form requirements into NCOALink license agreements. In addition,
                                                         management does not require complete cooperative database mailers’ information on the licensees’ monthly performance reports.
                                                         Further, cooperative database mailers for a licensee share one set of credentials26 and, as a result, sensitive NCOALink customer
                                                         data is at risk of unauthorized access in and outside the U.S., which could lead to data breaches, fines, and a negative impact on
                                                         the Postal Service brand.

                                                         National Change of Address Linkage License Monitoring
                                                         Management is not monitoring licensee compliance with NCOALink license agreements. For example:

                                                         ■■ Licensees are transmitting sensitive customer data in                                     to business mailers using File Transfer Protocol (FTP),27 which
Findings




                                                            is insecure and violates policy.28

                                                         ■■ Management did not adhere to existing policy29 when they decided to no longer require licensees to complete site security
                                                            review worksheets as part of the licensing and certification process. Moreover, the Postal Inspection Service and the Corporate
                                                            Information Security Office (CISO) have never performed site security reviews of licensees’ environments, as required by policy
                                                            and the license agreements.
Recommendations




                                                         ■■ Some licensees are using unsupported operating systems30 to store Postal Service COA data; therefore, security updates are
                                                            no longer available, leaving COA data at risk of data breaches.

                                                         ■■ International mailers are participating in the NCOALink service program, which is a violation of the NCOALink agreement.31
                                                            A total of 2,674 international mailers have agreements with 19 NCOALink licensees located in the U.S. Of the 36 license
                                                            agreements we reviewed, we also determined nine international mailers stored NCOALink data outside the U.S.



                                                         23	 As part of the licensing and certification process, the Postal Service requires licensees to provide a self-certifying document to identify their internal, physical, and logical
                                                             security controls.
                                                         24	 Handbook AS-805, Section 10.4.8, Isolation of Postal Service Information.
                                                         25	 Cooperative database mailers consist of many companies that contribute information to a database in return for aggregate information on customers of other participants.
Appendices




                                                             Some licensees have over 300,000 companies participating in their cooperative database.
                                                         26	 A licensee can provide multiple cooperative database mailers one acknowledgement form identification (ID) for accessing NCOALink data.
                                                         27	 A standard Internet protocol for transmitting files in          between computers on the Internet.
                                                         28	 Handbook AS-805, Section 9-7.1, Encryption.
                                                         29	 Handbook AS-805, Section 4-1, Security Risk Management Policy.
                                                         30	 Unsupported operating systems such as Windows NT, Windows 2000, and Windows XP.
                                                         31	 According to the NCOALink license agreements the service is only available to entities within the U.S.
                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                                                      Print                                                10
Highlights                                               ■■ Management stated they do not always ensure all third parties are updating acknowledgement forms. Specifically, some
                                                            business mailers and other third-party participants only update their acknowledgement form information when their contact
                                                            information changes. Also, the Postal Service does not ensure the acknowledgement form renewal process between licensees
                                                            and business mailers is occurring and does not store updated acknowledgement form information.

                                                         These monitoring issues occurred because there is no assigned contracting authority or an automated acknowledgement form
                                                         process to monitor and address compliance issues. The current process requires licensees and the Postal Service to maintain
                                                         hard copies or scanned images of their acknowledgement forms (some licensees could have up to 300,000 acknowledgement
                                                         forms to maintain); therefore, monitoring acknowledgement form compliance or conducting research on customers obtaining
Table of Contents




                                                         NCOALink data is labor intensive.

                                                         This puts sensitive NCOALink customer data at risk of unauthorized access, which could lead to fines and a negative impact on
                                                         the Postal Service brand. Without an automated acknowledgement form solution, the Postal Service is at a greater risk of incurring
                                                         fines for violating the Privacy Act of 1974.

                                                         Maintaining hard copy or scanned versions of acknowledgment forms is very costly in the digital age. There are various automated
                                                         solutions to manage hard copy documents enterprise-wide. Specifically enterprise content management systems can be used
                                                         by organizations to store and manage documents. A solution such as an enterprise content management system would allow the
                                                         Postal Service to store hard copy forms electronically to provide improved access and monitoring capabilities. Benefits include:

                                                         ■■ Compliance with the Privacy Act and better oversight of NCOALink contractual activities.
Findings




                                                         ■■ Elimination of paper acknowledgement forms and electronic storage accessible by external and internal stakeholders.

                                                         ■■ Elimination of single acknowledgement form ID for multiple business mailers.

                                                         ■■ Support for proper governance of NCOALink data by ensuring completion of acknowledgement form process and compliance
Recommendations




                                                            with policies and regulations.
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                  Print                                 11
Highlights
                    Recommendations                      We recommend the vice president, Engineering, coordinate with the vice president, Information Technology, to:

                                                         1.	 Add the Change of Address Forms Processing System to the eAccess application or use an alternative method for user
                                                             account management.

                                                         We recommend the vice president, Delivery and Post Office Operations:

                                                         2.	 Communicate user account management policies to all Computerized Forwarding System site employees.
Table of Contents




                                                         3.	 Direct Computerized Forwarding System site employees to securely store hard copy change of address orders in accordance
                                                             with policy.

                                                         We recommend the vice president, Product Information, direct the manager, Address Management, to:

                                                         4.	 Re-initiate the certification and accreditation process for the National Change of Address application to identify and document
                                                             security risks as required.

                                                         5.	 Upgrade the outdated                used in the National Change of Address Linkage application to a more secure and
                                                             compliant                before support for the current       ends.
Findings




                                                         6.	 Update license agreements to require that licensees include the names of cooperative database business mailers and their
                                                             data activities in their monthly performance reports.

                                                         We recommend the vice president, Product Information, direct the manager, Address Management, to coordinate with the
                                                         associate general counsel and chief ethics/compliance officer, and the manager, Corporate Information Security, to:

                                                         7.	 Implement a process to ensure current legal, security, privacy, and compliance requirements are included in all National
                                                             Change of Address Linkage license agreements.
Recommendations




                                                         We recommend the vice president, Product Information, direct the manager, Address Management, to coordinate with the
                                                         manager, Corporate Information Security, and the postal inspector in charge, Security and Crime Prevention, to:

                                                         8.	 Implement a process and plan of action for establishing and conducting random site security reviews of National Change of
                                                             Address Linkage licensees to verify adherence to license agreement requirements, as required.

                                                         We recommend the vice president, Product Information, direct the manager, Address Management, to consult with the vice
                                                         president, Information Technology, to:

                                                         9.	 Evaluate solutions to automate the Processing Acknowledgment Form process.
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                    Print                                  12
Highlights                                               Management’s Comments
                                                         Management agreed with recommendations 4, 5, 8, and 9. Management disagreed with the findings and recommendations 1, 2, 3,
                                                         6, and 7 and with the other impact.

                                                         Regarding recommendation 1, management disagreed and stated the basis of the recommendation is flawed because the audit
                                                         team only visited one CFS site. Management stated the CFS operators did not adhere to the password policy and established
                                                         procedures cited in the training handbook. They also stated a conversion of the CFPS to eAccess would likely lead to the same
                                                         scenario and additional expenses. Further, management stated properly enforcing the current CFPS password security measures
Table of Contents




                                                         would correct this issue.

                                                         Regarding recommendation 2, management disagreed and stated the observed shortcomings in one CFS site are not indicative of
                                                         shortcomings in all CFS sites. However, management stated they will communicate with all CFS sites to remind them of the
                                                         Postal Service policy regarding user account management.

                                                         Regarding recommendation 3, management disagreed and stated current policy requires CFS sites to destroy COA forms after
                                                         30 days and does not require secure storage before the 30 day period prior to destruction. Therefore, management stated they will
                                                         continue to communicate and adhere to current policy regarding the destruction of COA’s after 30 days.

                                                         Regarding recommendation 4, management agreed to resubmit the NCOALink application for a new certification and accreditation
                                                         review with a target implementation date of April 1, 2015.
Findings




                                                         Regarding recommendation 5, management agreed and plans to commence a review of alternatives available to eliminate the use
                                                         of the                   . Management will complete the software changes to upgrade the                 by



                                                         Regarding recommendation 6, management disagreed with requiring licensees to include the names of cooperative database
                                                         business mailers and their activities in monthly performance reports. Management stated the current NCOALink Full Service
Recommendations




                                                         License Agreement requires licensees to comply with the separate “License Performance Requirements” and they will determine
                                                         whether clarifying language regarding cooperative databases is needed and the appropriate document in which to place the
                                                         language. Management plans to complete their determination by April 1, 2015.

                                                         Regarding recommendation 7, management disagreed with implementing a process to ensure current legal, security, privacy,
                                                         and compliance requirements are included in all NCOALink agreements. Management stated Section 22.2 of the NCOALink Full
                                                         Service Provider License Agreement and the “Service Provider Certification Procedures” requires the licensees to provide the
                                                         Postal Service with current information. Management also stated they will develop supplemental internal administrative processes
                                                         to remind licensees to update information they provide to the Postal Service. Management plans to develop the internal processes
                                                         by October 1, 2015.
Appendices




                                                         Regarding recommendation 8, management agreed to implement a process and plan of action for establishing and conducting
                                                         random site security reviews for NCOALink licensees by April 1, 2015.




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                  Print                                13
Highlights                                               Regarding recommendation 9, management agreed to evaluate potential solutions for automating the collection and management
                                                         of acknowledgement forms by April 1, 2015.

                                                         See Appendix B for management’s comments, in their entirety.

                                                         Evaluation of Management’s Comments
                                                         The OIG considers management’s comments responsive to recommendations 1,2, 4, 5, 8, and 9 and corrective actions should
                                                         resolve the issues identified in the report. The OIG considers management’s comments to recommendations 3, 6, and 7 as
Table of Contents




                                                         nonresponsive.

                                                         Although management disagreed with recommendations 1 and 2, their statement does not refute the issue regarding sharing
                                                         logon IDs and passwords among the Jackson CFS operators. We agree with management that the sharing of logon IDs and
                                                         passwords does not adhere to policy, which we cited in the report and was the basis of our finding. Also, we reviewed Handbook
                                                         4050-01, CFPS Scanner Site Operations Training Course, and did not find any information on the proper use of logon IDs and
                                                         passwords for establishing user accountability. However, we did reference Handbook AS-805, Section 9-4 in the report as criteria
                                                         for proper account and password administration. In subsequent communications, Jackson CFS management stated this issue
                                                         has been corrected and the four CFS employees are now using unique logon IDs and passwords. Although establishing a method
                                                         for user account management would help prevent people from sharing accounts and passwords in the future, actions planned
                                                         to remind CFS employees of user account management policy, coupled with actions already taken, should resolve the issue
                                                         identified at the Jackson, TN CFS site.
Findings




                                                         Management’s response to recommendation 3 does not correct the issue identified in this report. We agree policy exists that
                                                         requires COA orders to be shredded after 30 days. However, storing COA orders in unsecured locations for up to a year does
                                                         not comply with Handbook AS-805, section 3-5.3 and section 7-3.4 as noted in this report. Improper storage of sensitive COA
                                                         orders increases the risk of an unauthorized individual gaining access to customer’s COA information. Therefore, we believe
                                                         management should enforce the current security policies regarding the proper storage of COAs.
Recommendations




                                                         Management’s responses to recommendations 6 and 7 do not correct the issues related to license provisions and monitoring
                                                         noted in this report. Although the Licensee Performance Requirements provides technical requirements for the licensees,
                                                         management does not enforce licensees to divulge the identity of cooperative database mailers accessing NCOALink data. Also,
                                                         including the proper language in the NCOALink licenses to protect customer data lessens the risk of unauthorized access to
                                                         Postal Service data in and outside the U.S.

                                                         Although management disagreed with the non-monetary impact noted in our report, we believe our calculations were conservative
                                                         and reasonable. Our calculations were based on insufficient contract provisions that require licensees and business mailers to
                                                         secure customer data, and the absence of monitoring activities to ensure compliance with the NCOALink license agreements. As a
                                                         result, sensitive-enhanced customer data provided to 466 third-party licensees are at risk of unauthorized access.
Appendices




                                                         The OIG considers recommendations 4, 5, 6, 7, and 8 significant, and therefore requires OIG concurrence before closure.
                                                         Consequently, the OIG requests written confirmation when corrective actions are completed. These recommendations should not
                                                         be closed in the Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations
                                                         can be closed.

                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                  Print                                 14
Highlights
                    Appendices

                                                         Appendix A: Additional Information...........................................................16
                                                          Background ...........................................................................................16
                                                          Objectives, Scope, and Methodology.....................................................16
                          Click on the appendix title
                                                          Prior Audit Coverage..............................................................................17
Table of Contents




                           to the right to navigate to   Appendix B: Management’s Comments....................................................18
                               the section content.
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                            Print                    15
Highlights          Appendix A:                          Background
                    Additional Information               The NCOA application is composed of several modules and components, one of which is NCOALink. NCOALink is a premailing
                                                         address correction method and consists of a secure dataset of about 160 million permanent COA records of residential and
                                                         business customers who have filed COA requests.

                                                         Business mailers who want bulk mail rates must use NCOALink to minimize the processing of UAA mailpieces. This reduction
                                                         in UAA mailpieces has contributed to lower costs and processing time for business mailers and the Postal Service. Business
                                                         mailers wanting access to NCOALink data must get it through the licensees who have agreements with the Postal Service. The
Table of Contents




                                                         Postal Service has 515 agreements with licensees that fall under six license categories: Full-Service, Limited Service, Interface
                                                         Developers, Interface Distributor, End User Mailer, and Mail Processing Equipment (manufacturing-integrator and data user).
                                                         These licensees charge business mailers a fee for updating their mailing lists with customer address records from the NCOALink
                                                         application. The Postal Service strictly controls the matching logic of NCOALink data.

                                                         Licensees are required to collect annual updates to acknowledgement forms from each of their customers and must secure these
                                                         agreements before business mailers can perform NCOALink processing. The current acknowledgement form process relies strictly
                                                         on maintenance of hard copy acknowledgement forms or acknowledgement form data stored by the licensees. Licensees are
                                                         required to provide the Postal Service with monthly performance reports.

                                                         Objectives, Scope, and Methodology
                                                         Our objectives were to determine whether security controls over the NCOA manual process and NCOALink data adequately
Findings




                                                         protect the confidentiality and integrity of customer data and to identify potential solutions for improving the Postal Service
                                                         acknowledgement form process. To accomplish our objectives, we interviewed managers and key officials from Address
                                                         Management, CISO, Consumer and Industry Affairs, Engineering Systems, Information Technology, Postal Inspection Service,
                                                         Law Department, Mail Entry and Payment Technology, Post Office Operations, Secure Digital Solutions, and Supply Management.

                                                         We obtained and reviewed documentation and relevant information regarding security and privacy controls for the manual COA
                                                         and NCOALink process. This includes processing COA orders and data through the CFS, PARS, and REC sites and relevant
                                                         documentation related to NCOALink license agreements, Postal Service policies, and requirements. We reviewed potential
Recommendations




                                                         solutions (such as cloud, enterprise content management, and digital vault) for automating the acknowledgement form process.
                                                         Lastly, we developed an understanding of the COA customer notification and fraud process and reviewed COA issues reported to
                                                         Address Management, the Enterprise Customer Center via usps.com, and the Postal Inspection Service.

                                                         To calculate other impact, we reviewed the Ponemon Institute’s 2014 Cost of a Data Breach Study: United States to determine the
                                                         Postal Service’s cost per compromised record, the total risk for the NCOALink agreements, and the probable threat of a
                                                         data breach.

                                                         We conducted this performance audit from January 2 through September 2014, in accordance with generally accepted
                                                         government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                         Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                         basis for our findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable
Appendices




                                                         basis for our findings and conclusions based on our audit objectives. We discussed our observations and conclusions with
                                                         management on August 5, 2014, and included their comments where appropriate.

                                                         We did not assess the reliability of any computer-generated data for the purposes of this report.
                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                    Print                                16
Highlights                                               Prior Audit Coverage
                                                                                                                                                                      Monetary Impact
                                                         Report Title                             Report Number                    Final Report Date                    (in millions)
                                                         Delegations of Contracting
                                                         Authority Outside of Supply               SM-AR-14-007                         8/05/2014                           None
                                                         Management 
                                                         Report Results: Postal Service officials were not aware that Address Management personnel executed agreements with mail
                                                         service providers without a required delegation. Specifically, Address Management officials did not have delegation granting authority
Table of Contents




                                                         for personnel to sign agreements with service providers who provide address quality data correction service to mailers.
                                                         Cloud Computing Contract                  SM-MA-14-005                         4/30/2014                        $12,429,228
                                                         Clauses
                                                         Report Results: The 13 cloud computing contracts did not address information accessibility and data security for network access
                                                         and server locations because the Information Security handbook in effect at the time of the contract award did not include these
                                                         requirements. In addition, the Postal Service exempted a supplier from following the handbook for one contract that did not contain
                                                         sensitive data. Although the data may not be sensitive, the handbook provides additional requirements such as insurance against
                                                         losses resulting from data breaches and procedures for timely notification of these breaches. Management generally agreed with the
                                                         findings, recommendations, and monetary impact.
                                                         Security of File Transfer                  IT-AR-12-009                        9/12/2012                           None
                                                         Protocol Transmissions
                                                         Report Results: Controls surrounding FTP activities are not adequate to ensure protection of the Postal Service’s sensitive data.
Findings




                                                         Specifically, business areas throughout the Postal Service are transmitting sensitive data in       Further, unnecessary FTP
                                                         services are running on servers and mainframes on the Postal Service’s network. We made seven recommendations management
                                                         agreed with six, and disagreed with one.
                                                         Patch Management Processes                 IT-AR-12-002                         1/9/2012                           None
                                                         Report Results: The Postal Service has not provided consistent oversight and monitoring of the patch management process to
                                                         ensure uniform application across the enterprise. Specifically, we identified inconsistencies and non-compliant issues with the patch
                                                         management processes and unsupported operating systems and databases. We made 10 recommendations and management
Recommendations




                                                         agreed with all but one.
                                                         Data Breach Incident Reporting             IT-AR-11-006                        8/11/2011                           None
                                                         Report Results: Management has adequate policies and operations in place to appropriately report and handle incidents and notify
                                                         affected individuals of data breach incidents. However, management is not maintaining a complete, reliable record of data breach
                                                         incidents in the Computer Incident Response Team database. In addition, the Postal Service did not update Chief Privacy Office
                                                         procedures to reflect current processes for handling data breach incidents and include suggested key practices outlined in federal
                                                         guidelines. We made two recommendations and management agreed with one and partially agreed with the other.
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                                      Print                                  17
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   18
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   19
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   20
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   21
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   22
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   23
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   24
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   25
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   26
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   27
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   28
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                         Print   29
Highlights
Table of Contents
Findings




                                                            Contact us via our Hotline and FOIA forms, follow us on social
                                                         networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                or abuse. Stay informed.
Recommendations




                                                                               1735 North Lynn Street
                                                                              Arlington, VA 22209-2020
                                                                                    (703) 248-2100
Appendices




                    National Change of Address Program
                    Report Number IT-AR-14-010
                                                                                                                                  Print   30
